2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OQCKLE

Le ga 1B rie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 Nos. 19-251, 19-255

AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,

Vv.

XAVIER BECCERA, in his official capacity as Attorney
General of the State of California, Respondent,
—and —

THOMAS MORE LAW CENTER, Petitioner,

v.
XAVIER BECCERA, in his official capacity as Attorney
General of the State of California, Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the Brief of Amici Curiae 24 Family Policy Organizations
Supporting Petitioners in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Anita Y. Milanovich
Counsel of Record
MILANOVICH LAW, PLLC
100 E. Broadway Street
The Berkeley Room
Butte, Montana 59701
Ph.: 406/589-6856
Email: aymilanovich@
milanovichlaw.com

Subscribed and sworn to before me this 25th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Sa wv E Collie Qrdiaw-h, Chile

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38471
 

Attorneys for Petitioner Americans for Prosperity Foundation (19-251)

Derek L. Shaffer Quinn Emanuel Urquhart & Sullivan, LLP (202) 538-8000
Counsel of Record 1300 I Street NW, Suite 900
Washington, DC 20005

derekshaffer@quinnemanuel.com
Party name: Americans for Prosperity Foundation

Attorneys for Petitioner Thomas More Center (19-255)

John J. Bursch Alliance Defending Freedom (616) 450-4235
Counsel of Record 440 First Street, NW
Suite 600

Washington, DC 20001

jbursch@adflegal.org

Party name: Thomas More Law Center

 

 

Attorneys for Respondent (19-251, 19-255)

Aimee Athena Feinberg California Department of Justice (916) 210-6003
Counsel of Record 1300 I Street
Sacramento, CA 95814

Aimee.Feinberg@doj.ca.gov

Party name: Xavier Becerra, in his official capacity as the Attorney General of California

 

 
